Audit Report
Return
to the USDOJ/OIG Home Page
Office of Justice Programs
Fiscal Year 2000
Report No. 01-22
August 2001
Office of the Inspector General
TABLE OF CONTENTS
COMMENTARY AND SUMMARY
A MESSAGE FROM THE ASSISTANT ATTORNEY GENERAL (not available electronically)
COMPTROLLER'S MESSAGE (not available electronically)
MANAGEMENT'S DISCUSSION AND ANALYSIS
INDEPENDENT AUDITORS' REPORT ON FINANCIAL STATEMENTS
INDEPENDENT AUDITORS' REPORT ON INTERNAL CONTROL
EXHIBIT I - REPORTABLE CONDITIONS
EXHIBIT II - STATUS OF PRIOR YEAR RECOMMENDATIONS
INDEPENDENT AUDITORS' REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS
PRINCIPAL FINANCIAL STATEMENTS
BALANCE SHEET
STATEMENT OF NET COST
STATEMENT OF CHANGES IN NET POSITION
STATEMENT OF BUDGETARY RESOURCES
STATEMENT OF FINANCING
NOTES TO THE FINANCIAL STATEMENTS
REQUIRED SUPPLEMENTARY INFORMATION
SCHEDULE 1 -  BUDGETARY RESOURCES BY MAJOR APPROPRIATION
SCHEDULE 2 -  INVESTMENT IN NONFEDERAL PHYSICAL PROPERTY
SCHEDULE 3 -  INTRAGOVERNMENTAL BALANCES
SCHEDULE 4 -  INTRAGOVERNMENTAL EARNED REVENUE AND RELATED COSTS BY PARTNER AGENCY
SCHEDULE 5 -  INTRAGOVERNMENTAL NON-EXCHANGE REVENUE AND GROSS COST BY PARTNER AGENCY
APPENDIX I - OFFICE OF JUSTICE PROGRAMS' RESPONSE TO THE DRAFT AUDIT REPORT
APPENDIX II - AUDIT DIVISION ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT